November 13, 2020
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Planned Parenthood Center for Choice, et al. v. Greg Abbott, Governor of
Texas, et al., Case No. 20-305

Dear Mr. Harris,
I am counsel of record for petitioners in this case. Under the Court’s Rule 15.5 and
the case distribution schedule, the certiorari filings are set for distribution on November
24, 2020. Pursuant to the Court’s order of March 19, 2020, regarding filing deadlines
during the COVID-19 pandemic and Rule 30.4, we respectfully request a 15-day delay in
distribution. This delay would set the papers for distribution on December 9, 2020.
We make this request due to difficulties related to the pandemic. This case involves
eight separate petitioners and multiple sets of counsel, all of whom are operating in an
almost entirely virtual format. This mode of operation, combined with various
individualized circumstances related to the pandemic and a November 18 deadline for
lead counsel in the Iowa Supreme Court, impairs our ability to produce a single reply brief
in this case under the ordinary timeline.
Counsel for respondents has indicated respondents do not oppose this request.
Very truly yours,

Julie A. Murray
Counsel for Petitioners
cc: All Counsel

